No. _________
IN THE SUPREME COURT OF THE UNITED STATES

ROBERT ALLEN VESTAL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

/s/ Christopher A. Curtis
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Christopher A. Curtis **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 05270900
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
(817) 978-2753

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10325, dated
January 19, 2021, United States v. Vestal (unpublished).
Appendix B Judgment and Sentence of the United States District
Court for the Northern District of Texas, entered
March 12, 2020. United States v. Vestal, Dist. Court 5:19-CR-00107-H.

APPENDIX A

Case: 20-10325

Document: 00515711749

Page: 1

Date Filed: 01/19/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
January 19, 2021

No. 20-10325
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Robert Allen Vestal,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-107-1
____________________________
Before Clement, Higginson, and Engelhardt, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10325

Document: 00515711716

Page: 1

Date Filed: 01/19/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 19, 2021

No. 20-10325
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Robert Allen Vestal,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:19-CR-107-1
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Robert Allen Vestal appeals his 48-month sentence following his
guilty plea conviction for distribution and possession with intent to distribute
methamphetamine. He contends that the district court’s upward variance
from the guidelines imprisonment range of 30 to 37 months was substantively

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10325

Document: 00515711716

Page: 2

Date Filed: 01/19/2021

No. 20-10325

unreasonable because it failed to fully account for the fact that he possessed
only a small quantity of drugs. And he argues that the district court
compounded its error by unreasonably ordering the sentence to run
consecutively to his six-year state sentence for a separate drug offense.
However, the district court considered the factors listed in 18 U.S.C. § 3553
and relied on aggravating circumstances—including Vestal’s recidivism, that
prior more lenient sentences failed to deter his conduct, and that he
committed the instant offense while on bail for a state drug offense—in
arriving at its selected sentence. Vestal does not show that the district court
failed to consider a factor that should have received significant weight, gave
significant weight to an improper factor, or made a clear error of judgment in
balancing the sentencing factors. See United States v. Fraga, 704 F.3d 432,
440-41 (5th Cir. 2013). Accordingly, he fails to demonstrate that his sentence
was substantively unreasonable.
AFFIRMED. The case is REMANDED for the limited purpose of
correcting the clerical errors in the written statement of reasons, which does
not reflect the total offense level or guidelines range calculated by the district
court. See Fed. R. Crim. P. 36.

2

App. A 003

APPENDIX B

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20

Page 1 of 7 PageID 169

UNrrso Srerss DrsrRlcr CouRr
NORTHERN DISTRICT OF TEXAS LUBBOCK DIVISION

I

LINITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

$
5

ROBERT ALLf,N VESTAL

I

Case Number: 5:

5

USM Number: 59410-177
David E. Sloan

s
5

l9-CR-00107-H-BQ(l)

I)efendant s Attomey

THE DEFENDANT:

x
n
tr

!

pleaded guilty to count(s)

I

of the ind ictment filed September I

l,

2019.

pleaded guilty to count(s) before a U.S. Magistrate
Judge, which was accepted by the court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea ofnot guilty

The defendant is adjudicated guilfy ofthese offenses:

Title & Section / Nature of Offense
2

I U.S.C.

$$ 841(aX I ). 841(bX

I

Offerse Ended

XC) Distribution and Possession With lntent To Distribute

Count

12/13/2018

Methamphetamine

The defendant is sentenced as provided in pages 2 through 7 ofthisjudgment. The sentence is imposed pursuant to the Sentencing

Reform Act of 1984.

E
El

The defendant has been found not guilty on count(s)

Remaining count(s) are dismissed on the motion ofthe United States

It is ordered that the defendanl must notiry the United States attomey for this district within 30 days of any change ofname,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by thisjudgment are fully paid.
ordered to pay restitution, the defendant must notiry the court and United States attomey of material changes in economic
circumstances.

lf

March t 2. 2020
Date

of lmposilion of Jud

Sigrrature ofJudgc

f

y'ames Weslev Hendrix
/ United States District Judge
Name and Trllc ofJudS(

March 12,2020
Dale

App. B 001

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20

Page 2 of 7 PageID 170

AO 2458 (Rev. IXN 9/19) Judgmcnr in a CriminalCasc

DEFENDANT:
CASE NTJMBER:

Judgment-Page2of7

ROBERT ALLEN VESTAL
5: l9-CR-00 I 07-H-BQ( I )

IMPRISONMENT
The defendant is hereby committed to the custody ofthe United States Bureau ofPrisons to be imprisoned for a total term

ol

48 months as to count I to run consecutively with any sentence imposed in Case No. I8-09-9448 pending in the 286h Districl Court,
Hockley County, Texas.

Xl

The court makes the following recommendations to the Bureau ofPrisons: Incarceration at FCI Seagoville, Texas.

The Coun recommends that, while incarcerated, the defendant receive appropriate substance-abuse treatment, but the Coun did not
lenghen the defendant's prison term to promote rehabilitation. See Tapia v. Llnited States, 564 rJ.S. 3 l9 (201 I ).

X
tr

The defendant is remanded to the custody ofthe United States Marshal.
The defendant shall surrender to the United States Marshal for this district

trat
as

tr

n

n p...

a.m.

on

notified by the United States Marshal

The defendant shall surrender for service ofsentence at the institution designated by the Bureau of Prisons

tr
tr
E

before 2 p.m. on
as

notified by the United States Marshal.

as

notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows

Defendant delivered on

at

to

with a certified copy ofthisjudgment

TINITED SI'A']'ES MARSIIAL

By
DEPUTY TJNITED STATES MARSHAL

App. B 002

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20

AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:
NUMBER:

CASE

a

Page 3 of 7 PageID 171

Criminal Case

Judgment

..

Page 3

ROBERTALLEN VESTAL
5:

l9-CR-00107-H-BQ(

l)

SUPER\'ISED RELEASE
Upon release fiom imprisonm€nt, the defendant shall beon supervised release for a term

of:

three (3) years.

MANDATORY CONDITIONS

l.
2.
3.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain fiom any unlawful use ofa controlled substance. You must submit to one drug test within l5 days ofrelease
fiom imprisonment and at least two periodic drug tests thereafter, as determined by the court.

E

The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicoble)

4. E

You must make restitution in accordance with l8 U.S.C. $$ 3663 and 3663,4 or any other statute authorizing a sentence
of restitution. (check if opplicable)

5. X
6. !

You must cooperate in the collection ofDNA as directed by the probation officer. (check ifapplicable)

7. E

You must comply with the requirements ofthe Sex Offender Registration and Notification Act (34 U.S.C. g 20901, €t
seq.) as directed by the probation ofncer, the Bureau of hisons, or any state sex offender registration agency in which
you reside, work, are a sludent, or were convicted of a qualiQing offense. (check if applicoble)
You must participate in an approved program for domestic violence . (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

App. B 003

of 7

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20

AO 2458 (Rev. TXN 9/19) Judgmenr in aCriminal Case

DEFENDANT:

CASENUMBER:

Page 4 of 7 PageID 172
Judgment-Page4of7

ROBERTALLEN VESTAL
5:19-CR-00107-H-BQ(l)

STANDARD CONDITIONS OF SUPERVISION
As part ofyour supervised release, you musl comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identiry the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
I . You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours
ofyour
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a differenr time

frame.
2. After initially reporting to the probation office, you will receive instructions fiom the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federaljudicial district where you are authorized to reside without first getting permission ftom
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. Ifyou plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notiry the probalion omcer at least l0 days before the change. lf notirying
the probation officer in advance is not possible due to unanticipated circumstances, you must notifi, the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to yisit you at any time at your home or elsewhere, and you must permit the probalion omcer
to take any items prohibited by the conditions ofyour supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type ofemployment, unless the probation officer excuses you fiom
doing so. Ifyou do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. Ifyou plan to change where you work or anything about your work (such as your position or yourjob
responsibilities), you must notii, the probation officer at least l0 days before the change. If notirying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notiry the probation officer within 72 hours of
becoming aware ofa change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. Ifyou know someone has b€en
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission ofthe

probation officer.
9. Ifyou are arrested or questioned by a law enforcement officer, you must notiry the Fobation officer within 72 hours.
10. You must not ov/n, possess, or have access to a fuearm, ammunition, desmrctive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose ofcausing bodily injury or death to another person such as nunchakus or
tasers).
I l. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant

without first getting the permission ofthe court.
12. Ifthe probation officer determines that you pose

a risk to another person (including an organization), the probation officer may
require you to notiry the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirrn that you have notified the person about the risk.
13. You must follow the instructions ofthe probation officer related to the conditions of supervision.

U.S. Probation OIIice Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
w tten copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant's Signature

Date

App. B 004

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20
AO 2458 (Rev. 1XN 9/19) Judgment in

DEFENDANT:
CASE NUMBER:

a

Page 5 of 7 PageID 173

Criminal Case

Judgment-Page5of7

ROBERT ALLEN VESTAL
5: l9-CR-00 107-H-BQ( I )

SPECIAL CONDITIONS OF SUPERVISION
I

The defendant shall participate in mental health treatment services as directed by the probation officer
until successfully discharged. These services may include medications prescribed by a licensed
physician. The defendant shall contribute to the costs of services rendered (copayment) at a rate of at
least

2.

$

10.00 per month.

The defendant shall pa(icipate in a program (inpatient and/or outpatient) approved by the U.S.
Probation Office for treatment of narcotic, drug, or alcohol dependency, which will include testing for
the detection of substance use or abuse. The defendant shall contribute to the costs of services rendered
(copayment) at a rate ofat least $10.00 per month.

App. B 005

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20

A0 2458 (Rev. 'l XN 9/19)

Page 6 of 7 PageID 174

Judgment in a Criminal Case

DEFENDANT:

CASENUMBER:

Judgmenl-Page6of7

ROBERTALLENVESTAL
5:19-CR-00107-H-BQ(l)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule ofpayments page.

TOTALS

E
tr

Assessment

Restitution

Fine

AYAA Assessment*

s100.00

s.00

$.00

$.00

JVTA Assessment**

until

The determination ofrestitution is deferred
An Auended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant musl make restitution (including community restitution) to the following payees in the amount listed below.

lf

thc defendant makes a partial paymcnt, each paycc shall receive an approximately proportioned paymcnt. Ilowever, pursuant
U.S.C. $ 3664(i), all nonfederal victims must be paid belbre the United States is paid.

tr
tr
tr

to

18

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date ofthejudgment, pursuant to l8 U.S.C. $ 3612(f). All ofthe payment options on the schedule of
payments page may be subject to penalties for delinquency and default, pursuant to l8 U.S.C. g 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:

E
E

the interest requirement is waived for
the interest requirement for

the

the

tr fine
tr fine

* Amy. Vicky. and Andy Child Pomography Victim Assistance Act of
** Justice for Victims ofTrat'ncking Act of20l5. Pub. L. No. 114-22

tr
tr

restitution
restitution is modified as follows:

2018, Pub. L. No. I l5-299.

**r Findings for the total amount of losses are required under Chapterc 109A, I 10. I
September 13. 1994. but before April 23. 1996.

l0A, and I l3A of fitle l8 for offenses committed on or after

App. B 006

Case 5:19-cr-00107-H-BQ Document 70 Filed 03/12/20
AO 2458 (Rev. TXN 9/19) Judgment in

DEFENDANT:

CASENUMBER:

a

Page 7 of 7 PageID 175

Criminal Case

Judgmenl-Page7of7

ROBERTALLENVESTAL
5:19-CR-00107-H-BQ(l)

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment ofthe total criminal monetary penalties is due as follows

A tr
E

Lump sum payments
not later

of$

due immediately, balance due

than

,

or

!
B E

tr D, tr E, or
Payment to begin immediately (may be combined with tr
C,

C tr

Payment in equal

in

accordance tr C,

F below; or

D,

or

of$
j0
(e.g.,
or 60 days) after

tr

(e.g., weekly, monthly, quarterly) installments
(e.9., monlhs or yeqrs), to commence

D E

tr
tr

Payment in equal 20 (e.g., weekly, monthly,

quqrter\

installments ofS

(e.g., months or years), to commence

_

F below); or

over a period

of

the date ofthis judgment; or

over a period

of

(e.g., 30 or 60 days) after release from imprisonment

to a term ofsuperYision; or

E E

(e.g., 30 or 60 days) after release
Payment during the term ofsupervised release will commence within
from imprisonment. The court will set the payment plan based on an assessment ofthe defendant's ability to pay at that

time: or

F X

Special instructions regarding the payment ofcriminal monetary penalties:

It is ordered that the Defendant shall psy to the United States a special assessment of$100.00 for Count
shall be due immediately. Said special assessment shall be paid to th€ Clerk, U.S. District Court,

l,

which

Unless the court has expressly ordered otherwise, ifthisjudgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau ofPrisons'
Inmate Financial Responsibility Program. are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

D

tr
!
tr

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers frr./rdr'rg defendant nunber), Total Amount, Joint and
Several Amount, and corresponding payee, ifapproPriate.

The defendant shall pay the cost ofprosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant's interest in the following property to the United States;

Payments shall be applied in the following order: ( l) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA
assessment, (5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and ( l0) costs,

including cost ofprosecution and court costs.

App. B 007

